GR-90-98-005
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE COLTON POLICE DEPARTMENT, CALIFORNIA
GR-90-98-005 
FEBRUARY 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Colton Police Department (CPD), California. The CPD
received a grant of $351,424 to hire or rehire 2 additional sworn police officers under
the Universal Hiring Program (UHP), and $36,006 to redeploy 1.44 full-time equivalents
(FTEs) into community policing under the Making Officer Redeployment Effective (MORE)
program. The purpose of the additional officers under each of the grant programs is to
enhance community policing efforts.
Generally, the CPD properly implemented the community policing efforts described in its
applications. However, the CPD violated some grant conditions:


-     One of the officers hired under the UHP grant was
    subsequently transferred to a nongrant position. However, he continued to be paid with
    grant funds for three pay periods after the transfer. We questioned the $5,346 in salary
    and fringe benefits paid to the officer no longer working on the UHP grant.
- Another officer hired under the UHP grant was transferred from another law
    enforcement agency. He was not paid at the entry level rate specified in the grant award
    documents. We questioned the $1,140 in salary and fringe benefit payments exceeding the
    specified entry level rate.
- The CPD applied for a waiver of the 25 percent matching of funds requirement for the
    UHP grant. They received both an approval and a denial of the waiver, neither dated.
    Documented clarification of the conflict was not provided. Under these circumstances, we
    concluded no waiver had been granted and questioned $8,763 (25 percent of the $35,051 in
    otherwise allowable expenditures).
- Financial Status reports were not submitted for three quarters for the UHP grant.
#####